   March 18, 2002




Acquisition

Summary of DoD Travel Card
Program Audit Coverage
(D-2002-065)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this summary report, visit the Inspector General,
  DoD, Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
APC                   Agency Program Coordinator
DFAS                  Defense Finance and Accounting Service
USD(C)                Under Secretary of Defense (Comptroller)
                       Office of the Inspector General, DoD
Report No. D-2002-065                                                   March 18, 2002
  (Project No. D2002CK-0018.000)

         Summary of DoD Travel Card Program Audit Coverage

                                   Executive Summary

Introduction. In September 2001, the Ranking Member, U.S. Senate, Committee on
Finance requested details on audit reports on the use of credit cards in DoD. We
prepared this summary report to provide a central repository of audit findings on the
DoD travel card program and to identify misuse trends and problems. The DoD travel
card program is intended to provide travelers with a safe, effective, and convenient
method to pay for official travel expenses. Travel cards can be issued to individuals or
groups, depending on specific Component needs. The DoD Travel Card Program
Management Office stated that as of September 2001 it had about 3,600 group travel
cardholders and about 1.4 million individual travel cardholders. For FY 2001, the
DoD Travel Card Program Management Office stated that there were approximately
26 million transactions for $3.4 billion (an average of $131 per transaction).

The Under Secretary of Defense (Comptroller) is the proponent of the DoD travel card
program and designated the Defense Finance and Accounting Service to manage the
DoD travel card program through the DoD Travel Card Program Management Office.
The Services and Defense agencies have Component program managers to implement
and maintain the DoD travel card program.

Objective. The objective of the report was to summarize audit coverage of the DoD
travel card program. See Appendix A for a discussion of the scope and methodology.

Results. From FY 1999 through FY 2001, DoD audit organizations issued 31 reports
on the DoD travel card program. The Air Force Audit Agency issued 27 reports, the
Assistant Secretary of the Army (Financial Management and Comptroller) Internal
Review Office issued 2 reports, and the Defense Intelligence Agency Office of
Inspector General issued 2 reports. All 31 reports addressed one or more of the
following systemic issues:

     •   Management Oversight (27 reports)

     •   Card Use (23 reports)

     •   Account Reconciliation (16 reports)

     •   Training (16 reports)
Because of its dollar magnitude and mandated use, the DoD travel card program
requires continued management emphasis, oversight, and improvement by the DoD.
Independent internal audits should continue to be an integral component of management
controls. For details on the reports, see the Finding section of the report.

Recent DoD Actions. On June 14, 2001, the Under Secretary of Defense
(Comptroller) issued the memorandum, “Implementation of Changes to the Department
of Defense (DoD) Travel Card Policies to Reduce Delinquency Rates,” to address
travel card delinquency. The memorandum stated that the Defense Finance and
Accounting Service and the travel card contractor signed a task order modification on
April 11, 2001, to address the delinquency problem. The task order implemented new
policies that encourage DoD members to pay account bills in a timely manner and
reduce the financial risk to the travel card contractor.

On August 14, 2001, the Director, Defense Procurement requested that the Inspector
General, DoD, provide central coordination of future purchase card audits. In
response, the Inspector General, DoD, established a new audit planning subgroup on all
credit cards to provide centralized oversight and monitor the audit work of the DoD
audit community.

On September 21, 2001, the Under Secretary of Defense (Comptroller) issued the
memorandum, “Management of the Department of Defense Travel Card,” to provide
new procedures and to remind travel cardholders of existing procedures to reduce
delinquent accounts and card misuse. The memorandum acknowledged congressional
and press criticism of poor travel card controls and stated that the levels of unpaid debt
and unauthorized travel card use were unacceptable.

On November 6, 2001, the Under Secretary of Defense (Comptroller) informally issued
a set of financial management metrics for evaluation. Travel card delinquency metrics
are part of the financial management metrics. These metrics will be refined over the
next few months.

On March 12, 2002, the Under Secretaries of Defense (Comptroller), and (Acquisition,
Technology, and Logistics) issued a joint memorandum about the need for improved
internal controls over the use of purchase cards to preclude fraud, waste, and abuse.




                                            ii
Table of Contents

Executive Summary                                                   i


Introduction
     Background                                                     1
     Objective                                                      2

Findings
     DoD Travel Card Program Audit Coverage                         3

Appendixes
     A. Scope and Methodology                                       8
     B. Reports on the DoD Travel Card Program                      9
     C. Matrix of Systemic Issues                                  17
     D. Summary of DoD Component Responses to Under Secretary of
         Defense (Comptroller) September 21, 2001, Memorandum      18
     E. Report Distribution                                        21
Background
           In September 2001, the Ranking Member, U.S. Senate, Committee on Finance
           requested details on audit reports on the use of credit cards in DoD. We
           prepared this summary report to provide a central repository of audit findings on
           the travel card program and to identify misuse trends and other problems.

           Travel Card Program. The Travel and Transportation Reform Act of 1998
           mandates that all Government personnel shall use the travel card to pay official
           travel costs. Failure to use the travel card may subject the traveler to
           administrative or disciplinary action. The DoD travel card program is part of
           the SmartPay program.1 The Under Secretary of Defense (Comptroller)
           [USD(C)] is the proponent of the DoD travel card program and designated the
           Defense Finance and Accounting Service (DFAS) to manage the DoD travel
           card program through the DoD Travel Card Program Management Office. The
           DoD Travel Card Program Management Office manages the day-to-day
           operations of the DoD travel card program. Additionally, the Services and
           Defense agencies perform daily travel card management. Specifically, the
           Services and Defense agencies have Component program managers to
           implement and maintain the DoD travel card program. The Component
           program managers have agency program coordinators (APCs) that execute the
           DoD travel card program.

           Program Guidance. DoD Regulation 7000.14-R, volume 9, chapter 3, “DoD
           Financial Management Regulation,” provides guidance to ensure delinquency is
           reduced, cardholder use is authorized, cardholders are valid, and DoD personnel
           are trained.

                    •    The APC should suspend any account that is more than 60 days
                         delinquent unless the traveler’s supervisor can provide a reason not
                         to suspend the account. Additionally, all travel cardholders must
                         have travel orders.

                    •    The travel card shall be used for authorized travel expenses such as
                         lodging, rental cars, and other authorized expenses. The travel card
                         can also be used for authorized non-reimbursable expenses that are
                         incident to official travel, such as meals. DoD commanders and
                         supervisors are instructed not to tolerate travel card misuse.
                         Cardholders who misuse the card are subject to disciplinary action.

                    •    The APC is responsible for tracking arriving and departing
                         cardholders to ensure the validity of the organization and travel card
                         contractor reporting information.

                    •    The DoD Travel Card Program Management Office and the
                         Component program managers shall ensure that APCs and
                         cardholders are trained to use the travel card effectively.



1
    The SmartPay program includes the Government purchase, travel, and fleet credit cards.



                                                       1
    Travel Card Use. For FY 2001, the DoD Travel Card Program Management
    Office stated that there were approximately 26 million transactions for
    $3.4 billion (an average of $131 per transaction). The DoD Travel Card
    Program Management Office stated that as of September 2001 it had about
    3,600 group travel cards and 1.4 million individual cardholders. Group travel
    cards or centrally billed accounts are issued to DoD activities that choose to
    centrally procure airline tickets and other transportation needs for their
    travelers. The group delinquency rate was about 5 percent and the individual
    cardholder delinquency rate was about 9 percent. DoD had $7.4 million in
    group travel charges that were 60 or more days overdue and $23.1 million in
    individual travel charges that were 60 or more days overdue.

    Travel Card Benefits. The DoD travel card program facilitates and
    standardizes travel card use. The travel card is a safe, effective, convenient,
    and commercially available method to pay travel expenses. Additionally,
    travelers may use the travel card at specified automated teller machines to obtain
    cash for “out-of-pocket” travel-related expenses.

    DoD Travel Card Goals. The DoD intends to establish goals to reduce the
    group and individual travel card delinquency rates. When payments are made
    on delinquent group accounts, the travel card contractor is entitled to interest
    because of the Prompt Payment Act. The USD(C) stated that individual
    delinquent accounts are treated as private debt and could cause the travel card
    contractor to write off bad debt, unless salary offsets are used. Therefore, the
    failure to resolve delinquent accounts could result in increased future program
    costs.

Objective
    The objective of the report was to summarize audit coverage of the DoD travel
    card program. See Appendix A for the discussion of scope and methodology.




                                        2
            DoD Travel Card Program Audit
            Coverage
            From FY 1999 through FY 2001, DoD audit organizations issued
            31 reports on the DoD travel card program. The Air Force Audit
            Agency issued 27 reports, the Assistant Secretary of the Army (Financial
            Management and Comptroller) Internal Review Office issued 2 reports,
            and the Defense Intelligence Agency Office of Inspector General issued
            2 reports. All 31 reports (see Appendix B) addressed one or more of the
            following systemic issues:

                •   Management Oversight (27 reports)

                •   Card Use (23 reports)

                •   Account Reconciliation (16 reports)

                •   Training (16 reports)

Systemic Issues
     We defined systemic issues as problems discussed in 10 or more reports.
     Appendix B lists all the reports reviewed, and Appendix C is a matrix of the
     systemic issues and relevant reports.

     Management Oversight. Twenty-seven reports stated that management
     oversight of cardholder accounts was inadequate. As a result, some account
     balances remained overdue, and charges were made without appropriate
     documentation. Examples of problems follow.

            •   An APC did not provide management oversight over delinquent
                accounts totaling $30,644. These accounts were up to 150 days past
                due (see Appendix B, report 11).

            •   APCs did not adequately monitor cardholder accounts to identify
                unauthorized transactions. For example, 9 of 30 accounts with
                unauthorized transactions were not identified by the APCs. Further,
                two cardholders with delinquent accounts older than 60 days, made
                unauthorized purchases with the travel card totaling $6,388 for a
                computer, furniture, automotive repairs, department store items, and
                cash withdrawals. The APCs were not familiar with the various
                reports and options available to monitor accounts, and the APCs had
                incorrectly installed monitoring software (see Appendix B,
                report 22).

            •   An APC did not document action taken on 7 of 21 delinquent
                accounts because the APC was not aware of documentation and
                tracking requirements. Additionally, 11 cardholders made $8,310 in
                unauthorized charges not supported by travel orders (see
                Appendix B, report 26).


                                        3
Card Use. Twenty-three reports disclosed that personnel misused the travel
card. Examples of problems follow.

       •   Forty-four Air Force personnel used their travel cards for
           165 unauthorized charges totaling $11,961. Some unauthorized
           charges were for automated teller machine withdrawals, restaurants,
           hotels, and theme parks that were not incident to official travel (see
           Appendix B, report 1).

       •   Six cardholders made unauthorized travel charges totaling $11,148,
           resulting in their accounts being terminated. Additionally, two of the
           six cardholders used the travel card exclusively in the local area for
           cash advances, department store purchases, and restaurant meals (see
           Appendix B, report 7).

       •   A cardholder made unauthorized charges with the travel card, and
           subsequently made arrangements to repay $22,000 (see Appendix B,
           report 30).

Account Reconciliation. Sixteen reports disclosed that the APCs did not
reconcile travel card accounts with personnel records. Examples of problems
follow.

       •   Squadron APCs did not always transfer accounts to other
           organizations or cancel accounts when personnel left the Air Force.
           For example, a review of cardholder listings and personnel records
           indicated that 19 of 30 cardholders were no longer assigned to the
           base. One cardholder had purchased seven airline tickets and made
           local gas station charges after separating from the Air Force (see
           Appendix B, report 12).

       •   APCs at a base did not maintain accurate account listings. For
           example, 1,276 accounts remained open for personnel no longer
           assigned to the base, and 15 of the accounts had delinquent balances
           totaling $9,268 (see Appendix B, report 7).

       •   Unit APCs did not always transfer accounts when cardholders
           permanently changed assignments or delete accounts when
           cardholders separated from Federal service. As a result, 95 of
           726 cardholders were no longer with those units, and 11 of the
           95 cardholders had separated from Federal service (see Appendix B,
           report 25).

Training. Sixteen reports disclosed that the APCs and travel cardholders did
not receive adequate training on travel card use. Examples of problems follow.

       •   The wing APC did not develop and implement a formal training
           program prior to appointing the unit APCs. As a result, APCs and
           supervisors did not adequately monitor 18 delinquent accounts
           totaling $17,302 because they were not aware of delinquency
           notification requirements (see Appendix B, report 6).




                                    4
           •   Nine of 10 APCs did not receive training on how to download
               account listings to monitor card usage. As a result of poor
               monitoring, 162 of 348 purchases reviewed were unauthorized (see
               Appendix B, report 12).

           •   All cardholders did not receive recurring training to remind them of
               their responsibilities. Consequently, the four squadrons had
               $21,852 in charges on 35 of 56 cardholder accounts that were not
               supported by travel orders (see Appendix B, report 27).

Recently Issued Guidance and Management Actions
    The USD(C) issued two memorandums during 2001 to address travel card
    issues, and the DoD Travel Card Program Management Office addressed travel
    card controls.

    June 14, 2001, Memorandum, “Implementation of Changes to the
    Department of Defense Travel Card Policies to Reduce Delinquency Rates.”
    The USD(C) informed the DoD Components that DFAS and the travel card
    contractor signed a task order modification on April 11, 2001, that implemented
    new policies to encourage DoD members to pay account bills in a timely manner
    and reduce the financial risk to the travel card contractor. The memorandum
    implemented the following policies.

           •   DFAS and the travel card company agreed to limit travel card
               possession to the Government personnel who need them. The travel
               card company will provide lists of infrequent travelers for the APCs
               to review for potential travel account cancellation or deactivation,
               and the cardholder’s supervisor must approve cancellation or
               deactivation. The USD(C) stated that this has resulted in the
               cancellation of over 115,000 travel cards and the deactivation of an
               additional 112,000 travel cards.

           •   Travelers can elect to have the Government pay the travel card
               company directly.

           •   The travel card company can request salary offsets against travelers
               who are more than 90 days delinquent. The USD(C) stated that
               salary offsets were implemented in October 2001 and delinquent
               accounts totaling $21.5 million have been identified for salary offset
               and $3.1 million has been paid to the travel card contractor as of
               January 2002.

           •   The travel card company can reduce cash and credit limits; however,
               the APC and the supervisor can raise the limits to meet mission
               needs.

           •   APCs will notify cardholders whenever their commander is notified
               of a delinquency.




                                        5
            The memorandum also stated that Service members and civilian employees will
            inprocess and outprocess through unit-level APCs, and that DoD Components
            should add this requirement to existing personnel transfer and separation
            procedures.

            September 21, 2001, Memorandum, “Management of the Department of
            Defense Travel Card.” 2 The USD(C) provided new procedures to reduce
            delinquent accounts and card misuse. The memorandum stated that monthly,
            the USD(C) would review changes in delinquent travel card debt, and each DoD
            Component will:

                     •   make Command expectations clear;

                     •   emphasize training;

                     •   issue travel cards only when needed;

                     •   use existing tools to identify problem accounts and notify users; and

                     •   take appropriate action with card abusers such as counseling, written
                         reprimand, suspension, Article 15,3 court martial, removal from
                         Federal service, or referral for fraud investigation.

                     •   follow DoD Regulation 7000.14-R, “DoD Financial Management
                         Regulation,” volume 9, chapter 3, and the General Services
                         Administration pamphlet, “But I Didn’t Know…Now You Do.”
                         Both provide guidance on appropriate travel card use.

            The memorandum directed each Component to provide evidence by
            November 15, 2001, that it had implemented these new procedures, to include:

                     •   copies of guidance issued to prevent travel card abuse and
                         delinquencies and

                     •   a description of the programs and procedures to conduct internal
                         reviews.

            DoD Component responses to the September 21 memorandum received by
            December 2001 are summarized in Appendix D.

            Management Actions. The Travel Card Program Management Office is
            addressing controls relating to the use of the travel card by personnel no longer
            in Federal service. DFAS will forward a request to the contractor and the DoD
            pay systems to determine if a cost effective software interface can be developed
            to ensure that personnel who are dropped from the pay system no longer have
            active travel card accounts. Terminal leave is a known limitation to this control
            because a cardholder can use accrued leave before formally leaving Federal
            service.

2
    This is a followup to the June 14, 2001, memorandum.
3
    An Article 15 is a form of non-judicial punishment for military personnel.



                                                        6
    The Travel Card Program Management Office stated that cardholders only use
    vendors that have travel-related merchant category codes. The approved
    merchant category codes are for:

           •   lodging,

           •   rental car,

           •   transportation,

           •   restaurants,

           •   medical, and

           •   limited dollar purchases in retail stores.

Conclusion
    The USD(C) is aware of travel card problems disclosed in the audits and has
    taken steps to address them. The USD(C) acknowledged that the Congress and
    the press were critical of the lack of controls over the DoD travel card program.
    Also, the USD(C) intends to capture and monitor travel card metrics. These
    changes are positive steps towards correcting the problem. Because of its dollar
    magnitude and mandated use, the DoD travel card program remains an area
    needing continued emphasis, oversight, and improvement. Independent internal
    audits should continue to be an integral component of management controls.




                                         7
Appendix A. Scope and Methodology
           This report summarizes DoD travel card program audit coverage from
           FYs 1999 through 2001. We identified 31 reports issued by the Air Force Audit
           Agency, the Assistant Secretary of the Army (Financial Management and
           Comptroller) Internal Review Office,4 and the Defense Intelligence Agency
           Office of Inspector General. We did not attempt to independently validate the
           information in the reports. The reports and report synopses were analyzed to
           determine systemic weaknesses.

           Use of Computer-Processed Data. We did not use computer-processed data to
           perform the evaluation.

           Contacts. We visited or contacted individuals and organizations within DoD.
           Further details are available upon request.




4
    The Assistant Secretary of the Army (Financial Management and Comptroller) Internal Review Office had
    not compiled data on Army internal review reports issued during the second half of FY 2001 that may
    have contained findings on the DoD travel card program.




                                                     8
Appendix B. Reports on the DoD Travel Card
            Program

Air Force Audit Agency
    These reports are available on the Air Force Audit Agency home page at
    http://www.afaa.hq.af.mil/

    1. Report No. WS001076, “Government Travel Card Program 188th
    Fighter Wing Air National Guard Fort Smith AR,” August 20, 2001. Forty-
    four personnel used their travel cards while not in official travel status for
    165 unauthorized charges totaling $11,961. Some charges were for automated
    teller machine withdrawals, restaurants, hotels, and theme parks. New
    cardholders did not understand when to use the travel card. Further, the APC
    did not receive training on duties and responsibilities when the previous APC
    left the unit. The report recommended that the commander ensure that
    questionable transactions are researched, monthly reviews are performed, and
    APCs are trained. Management concurred with the recommendations.

    2. Report No. DE001029, “Government Travel Charge Card Program 16th
    Special Operations Wing Hurlburt Field FL,” July 30, 2001. Numerous
    Hurlburt Field cardholders misused their travel cards. The travel histories
    showed that 14 of 36 randomly selected individuals used their travel cards while
    not in official travel status. The report recommended that the APC emphasize
    correct travel card usage, report misuse, determine cardholder account status,
    and review the cardholder account listing. Management concurred with the
    recommendations.

    3. Report No. WS001071, “Government Travel Card Program 189th
    Airlift Wing Air National Guard Little Rock AFB AR,” July 26, 2001.
    Cardholders misused their travel cards. For example, 60 of 736 cardholders
    made 335 unauthorized charges. Also, the APCs did not close 41 accounts of
    personnel who were reassigned to another unit, and the APCs did not properly
    update and maintain the cardholders’ accounts. Misuse went undetected because
    APCs did not receive the necessary training to prevent and detect abuse of the
    travel card. The report recommended that the commander provide a policy
    letter to the cardholders. The report also recommended that the commander
    provide training to the APCs to learn their duties and responsibilities.
    Management concurred with the recommendations.

    4. Report No. WS001070, “Government Travel Card Program 82nd
    Training Wing Sheppard AFB TX,” July 17, 2001. Numerous cardholders
    misused the travel card. Eleven individuals used the travel card without any
    related travel orders, and 23 individuals made purchases from merchants that
    appeared to be unauthorized. The report recommended that the commander
    provide a policy letter to the cardholders. The report also recommended that the
    APCs retrieve and monitor cardholder activity reports. Management concurred
    with the recommendations.



                                       9
5. Report No. DH001020, “Government Travel Card Program, 101st Air
Refueling Wing, Maine Air National Guard, Bangor, Maine,” July 11,
2001. The group and squadron commanders did not consistently administer
appropriate or timely disciplinary action for card abuse and delinquent accounts.
Also, the commanders did not consistently provide sufficient training on proper
use of the travel card. The report recommended that the commander
communicate regularly to the cardholders to ensure proper use of the travel
card. Management concurred with the recommendation.

6. Report No. EL001080, “Government Travel Card Program 4th Fighter
Wing Seymour Johnson AFB NC,” July 2, 2001. APCs and supervisors did
not adequately monitor 18 delinquent accounts totaling $17,302 because they
were not aware of delinquency notification requirements. During the audit, the
wing established written policies to correct the deficiency. Cardholders misused
the travel card in 5 of 615 accounts because the APC did not review accounts
for unauthorized charges. Written policies were established, and management
reviews were conducted to correct the deficiencies. Cardholder account listings
were inaccurate for 242 of 1,595 cardholders. Management established written
policies for deactivating and closing accounts and closed or transferred the
242 accounts. The wing APC had not developed a formal training program
prior to appointing the unit APCs. Management established a formal APC
training plan and issued a policy letter emphasizing compliance with the travel
regulation. The report made no recommendations because corrective actions
taken by management addressed the issues.

7. Report No. DE001024, “Government Travel Charge Card Program Air
Armament Center Eglin AFB FL,” June 20, 2001. The travel cardholders on
Eglin Air Force Base misused the travel card. The report disclosed that 6 of 20
selected individuals used their travel card for $11,148 in unauthorized charges
resulting in their accounts being terminated. Two of the six individuals used the
travel card exclusively in the local area for cash advances, department store
purchases, and restaurant meals. One of the individuals was no longer in
Federal service and should not have had the card. The APCs did not maintain
accurate account listings. For example, 1,276 accounts remained open for
personnel no longer assigned to the base, and 15 of the accounts had delinquent
balances totaling $9,268. The report recommended that the Air Armament
Center APC train the unit APCs and cardholders and report misuse to the
responsible unit APC. The report also recommended closing or transferring the
1,276 accounts, as appropriate, and periodically comparing personnel rosters to
cardholder listings. Management concurred with the recommendations.

8. Report No. EL001077, “Government Travel Charge Card 1st Fighter
Wing Langley AFB VA,” June 4, 2001. Unit APCs did not monitor
37 delinquent accounts because the APCs were not aware of delinquency
notification requirements. Also, the wing APC did not develop a formal
training program for the unit APCs because the APC did not believe that the
training was needed. Management took corrective action during audit fieldwork
to establish policies and training. The report made no formal recommendations
because corrective actions taken by management addressed the issues.




                                   10
9. Report No. EL001071, “Government Travel Charge Card Program
Headquarters Air Combat Command Langley AFB VA,” May 15, 2001.
The unit APCs at the two directorates reviewed did not maintain accurate
cardholder account listings for 36 of 58 cardholders reviewed. Furthermore, the
unit APCs did not monitor delinquent accounts for 5 of 280 personnel. The
report recommended that the unit coordinators maintain an up-to-date list of all
current cardholders and their accounts. The report also recommended that the
APCs periodically update the cardholder account listings. Management
concurred with the recommendations.

10. Report No. EL001067, “Government Travel Charge Card Program
65th Air Base Wing Lajes Field, The Azores, Portugal,” May 7, 2001.
Accurate cardholder listings were not maintained, and delinquent accounts were
not monitored. Also, the wing APC did not institute a formal training program
to explain the duties and responsibilities of the squadron APCs. The report
made no recommendations because corrective actions taken by management
addressed the issues.

11. Report No. EL001066, “Government Travel Charge Card Program
192nd Fighter Wing Byrd Field, Sandston VA,” May 4, 2001. The 192nd
Fighter Wing did not adequately monitor the delinquent accounts totaling
$30,644, which were up to 150 days past due. As a result, cardholders misused
the travel card in 12 of the 30 accounts reviewed. For example, one cardholder
charged $4,845 in airline tickets not related to official travel. In addition,
transaction activities were not periodically reviewed for proper usage. The
report recommended that the APCs review delinquency activity reports on a
monthly basis. The report also recommended that the commander provide
training to the APCs on the procedures to monitor the travel card program.
Management concurred with the recommendations.

12. Report No. WM001042, “Government Travel Charge Card Program,
60th Air Mobility Wing, Travis AFB CA,” April 26, 2001. The APCs did
not properly monitor card usage because 9 of 10 APCs did not receive training
on how to download and review electronic listings. As a result, 162 of 348
selected purchases were unauthorized and 2 squadron APCs made $600 in
unauthorized charges. Additionally, the squadron APCs did not always transfer
accounts to other organizations or cancel accounts when personnel left the Air
Force. For example, 19 of 30 statistically selected names were no longer
assigned to the base. One cardholder had purchased seven airline tickets and
made local gas station charges after separating from the Air Force. The report
recommended training the APCs, conducting disinterested third-party reviews of
squadron APCs transactions, transferring accounts to the proper organization,
canceling accounts of personnel no longer in the Air Force, developing
procedures to identify personnel no longer assigned to the unit, and developing a
checklist for personnel transferring within the base. Also, the report
recommended that squadrons issue policy letters to cardholders. Management
concurred with the recommendations.

13. Report No. EL001060, “Government Travel Charge Card Program,
Aerospace Command & Control & Intelligence, Surveillance, &
Reconnaissance Center Langley AFB VA,” April 2, 2001. A Langley Air
Force Base cardholder made unauthorized charges. Additionally, the APC did
not maintain an accurate cardholder listing or monitor delinquent accounts for


                                   11
4 of 215 personnel. The report recommended that the APCs maintain an up-to-
date listing of all cardholder accounts and validate it quarterly for accuracy.
Management concurred with the recommendation.

14. Report No. EL001056, “Government Travel Charge Card Program
Ninth Air Force Shaw AFB SC,” March 7, 2001. The APC did not maintain
accurate cardholder listings for 550 of 1,122 cardholders or notify management
when 9 accounts became delinquent. Additionally, 2 of 20 sampled cardholders
misused their travel cards. The report recommended that the APCs retrieve and
monitor account listings and reconcile them to the personnel rosters on a
periodic basis. The report also recommended that the APCs notify the
cardholders’ supervisors of any delinquent accounts. Management concurred
with the recommendations.

15. Report No. EO001028, “Government Travel Card 22d Air Refueling
Wing McConnell AFB KS,” February 16, 2001. The wing APCs did not
maintain current account listings. A review of the personnel rosters at the four
units discovered 36 current cardholders that did not appear on the account
listings. The report recommended that the APCs reconcile the unit personnel
rosters with the current account listings. Management concurred with the
recommendation.

16. Report No. WS001023, “Government Travel Card Program 375th
Airlift Wing Scott AFB IL,” December 28, 2000. Numerous wing
cardholders abused the travel card. Specifically, 3 individuals misrepresented
actual cost incurred for reimbursement, at least 31 individuals used the travel
card without related travel orders, and 50 individuals made purchases from
merchants that appeared to be unauthorized. These misuses went undetected
because APCs did not receive the necessary training to prevent and detect abuse
of the travel card. Further, the APCs did not close the accounts of reassigned
cardholders. The report recommended that the commander emphasize the
correct usage of the travel card, train the APCs, and have the APCs periodically
review and reconcile the account listings with the personnel roster.
Management concurred with the recommendations.

17. Report No. EL001033, “Government Travel Charge Card Program
18th Air Support Operations Group Pope AFB NC,” December 7, 2000.
The APCs did not maintain accurate cardholder account listings for 58 of 197
cardholders. Additionally, the APCs did not prepare letters of notification and
document eight accounts that were 60 days or more delinquent. Also, one travel
cardholder in the sampled units misused the travel card. The report
recommended that the unit supervisors provide a memorandum to the APCs
notifying the actions taken for delinquent accounts. The report also
recommended that the APCs maintain copies of delinquency notifications and
memorandums. Management concurred with the recommendations.

18. Report No. EL001032, “Government Travel Charge Card Program
347th Wing Moody AFB GA,” December 5, 2000. APCs and supervisors in
two squadrons did not adequately monitor delinquent accounts. In addition,
cardholders in each squadron misused the travel card in 13 of 260 accounts
reviewed. The 13 individuals used the travel card to obtain cash advances and
merchandise while not in an official travel status. Additionally, APCs in both



                                   12
squadrons did not maintain accurate cardholder listings for 129 of
638 cardholders. This occurred because the Vice Wing commander did not
institute a formal APC training program until July 2000. The report
recommended that the APCs notify the cardholders’ supervisors when accounts
become delinquent, and the supervisors notify the APCs of actions taken. The
report also recommended that the APCs maintain copies of delinquency
notifications and memorandums. Further, the report recommended that the
APCs review the cardholders account listings and reconcile them to the
personnel roster. Management concurred with the recommendations.

19. Report No. EL001024, “Government Travel Charge Card Program
437th Airlift Wing Charleston AFB SC,” November 17, 2000. The two
judgmentally selected squadrons misused the travel card. Also, only one
squadron had effectively monitored all of the delinquent accounts. Prior to the
audit, management had taken judicial action against two cardholders for travel
card misuse. The report recommended that the APCs notify the cardholders’
supervisors when accounts become delinquent, and that the supervisors notify
the APCs of actions taken to control the delinquencies. Further, the report
recommended that the APCs validate cardholder charges by sampling and
reconciling charges found on the activity reports to the official travel orders.
Management concurred with the recommendations.

20. Report No. DH001001, “Government Travel Card Program, Electronic
Systems Center, Hanscom AFB MA,” November 7, 2000. The APCs did not
consistently use internal controls to effectively monitor travel card charges.
This occurred because squadron APCs did not have sufficient training to use the
database that would prevent and detect misuse of the travel card. The report
recommended that the APCs validate cardholder charges on a monthly basis by
sampling and reconciling charges found on the activity reports to the official
travel orders. The report also recommended that the commander provide
training to the APCs on the computer system to retrieve necessary reports.
Management concurred with the recommendations.

21. Report No. EL000113, “Government Travel Card Program 71st Aerial
Port Squadron Langley AFB VA,” July 25, 2000. Squadron managers
effectively managed the travel card usage. Delinquent accounts were reduced
by 80 percent. However, 5 of 98 travel accounts were delinquent from 60 to
113 days. Management took action to reduce this figure during the audit.
Therefore, the report made no recommendations.

22. Report No. WP000060, “Travel Card Program 349th Air Mobility
Wing Travis AFB CA,” June 16, 2000. Eleven of 30 randomly selected
cardholders made unauthorized purchases. Two of the eleven cardholders made
unauthorized purchases totaling $4,434 for personal use items such as airline
tickets, rental cars, and automotive repairs. In addition, 19 of 28 judgmentally
selected cardholders with delinquent accounts older than 60 days made
215 unauthorized purchases. Two of the 19 cardholders had unauthorized
purchases totaling $6,388 for a computer, furniture, automotive repairs,
department store items, and cash withdrawals. Additionally, the APCs did not
adequately monitor cardholder accounts to identify unauthorized transactions.
For example, 9 of 30 accounts with unauthorized transactions were not
identified by the APCs. The APCs were not familiar with the various reports
and options available to monitor accounts, and the APCs had incorrectly


                                    13
installed monitoring software. The report recommended issuing a memorandum
to cardholders reminding them of the travel card terms and conditions and
requiring the APCs to notify supervisors of unauthorized purchases. Also, the
report recommended providing the APCs with training on the account
monitoring software and installing the monitoring software correctly.
Management concurred with the recommendations.

23. Report No. EO000051, “Government Travel Card Program 5th Bomb
Wing Minot AFB ND,” April 28, 2000. APCs did not always close accounts
for unauthorized cardholders. A review of 50 accounts identified 2 cardholders
with unauthorized travel cards, and 4 cardholders made $806 in unauthorized
charges. The APCs did not adequately monitor and control delinquent accounts.
The report made no recommendations because corrective actions taken by
management addressed the issues.

24. Report No. EO000007, “Government Travel Card Program 155th Air
Refueling Wing Lincoln ANG,” October 29, 1999. Personnel made one
miscellaneous charge and took 16 cash advances without authorization. The
report recommended that the APCs retrieve and monitor cardholder activity
reports and take appropriate action for misuse. Management concurred with the
recommendations.

25. Report No. EO000005, “Government Travel Card Program 509th
Bomb Wing Whitman AFB MO,” October 8, 1999. Unit APCs did not
always transfer accounts when cardholders permanently changed assignments or
delete accounts when cardholders separated from Federal service. As a result,
95 of 726 cardholders were no longer with those units, and 11 of the 95
cardholders had separated from Federal service. This occurred because APCs
did not receive sufficient recurring guidance. The report recommended
updating account listings, training the APCs, and reviewing account listings
periodically for discrepancies. Management concurred with the
recommendations.

26. Report No. WH099007, “Government Travel Card Program 634th Air
Mobility Support Squadron, Anderson AFB Guam,” December 9, 1998.
Squadron personnel misused their travel cards. This occurred because the
cardholders did not receive sufficient recurring guidance on the appropriate uses
for the card. For example, 11 travel orders did not support $8,310 in charges.
Also, departing members did not receive a proper briefing on the use of travel
cards while in permanent change of station status. This resulted in a member
withdrawing $1,800 during a 25-day period before departure from the squadron.
Also, the APC did not document action taken on 7 of 21 delinquent accounts
because the APC was not aware of documentation and tracking requirements.
The report recommended providing recurring training, monitoring activity
reports, notifying supervisors regarding delinquent accounts, informing
supervisors of delinquency documentation, submitting monthly delinquency
letters to supervisors, and documenting all delinquency notification actions.
Management concurred with the recommendations.

27. Report No. WH099005, “Government Travel Charge Card Program
36th Air Base Wing, Andersen AFB Guam,” December 8, 1998.
Cardholders used the travel card for unauthorized purposes. Four squadrons
had charges on 35 of 56 cardholder accounts totaling $21,852 not supported by


                                   14
    travel orders. In a 17-day period, a departing squadron member withdrew more
    than $2,400 in addition to rental car and department store charges that were
    unauthorized. The APCs could not provide documentation showing notification
    was provided on 47 delinquent cardholder accounts. Further, squadron
    cardholder account listings were not accurate. For example, 98 of 615
    cardholders were no longer assigned to the base, and 7 cardholders were shown
    on duplicative active accounts. Finally, cardholders in two of four squadrons
    did not receive recurring training to remind them of their responsibilities. The
    report recommended that the APCs monitor activity reports and reemphasize
    travel card usage policy, review and implement travel card procedures, inform
    supervisors of delinquency documentation, complete monthly delinquency
    letters, and document action on delinquent accounts. The report also
    recommended reviewing reports monthly, implementing out-processing
    procedures, establishing written procedures to eliminate duplicative accounts,
    and implementing a recurring training program. Management concurred with
    the recommendations.

Assistant Secretary of the Army (Financial Management and
  Comptroller) Internal Review Office
    These report synopses are available on the Assistant Secretary of the Army
    (Financial Management and Comptroller) Internal Review Office home page at
    http://www.asafm.army.mil/

    28. Synopsis of Significant Internal Review Report, “Use of the
    Government Travel Charge Card,” FY 00-Volume I. The usage report was
    not being fully reviewed to detect possible travel card misuse. Specifically,
    some questionable charges were reviewed, but other questionable charges were
    not. The audit found that the review procedures did not provide for a selection
    of an unbiased review sample and did not provide an explanation for the type of
    misuse selected for supervisor review. The audit also found that misuse
    occurred on voluntary return travel and local travel.

    29. Synopsis of Significant Internal Review Report, “Army Travel Card
    Program,” FY 00-Volume II. Written policy was needed to address travel
    card abuses such as unauthorized use, unauthorized cash withdrawal, and failure
    to pay promptly. Policy was developed during the audit to have cardholders
    sign an agreement stating they are aware of the consequences of travel card
    abuse, ensure even-handed treatment for those who abuse the card based on the
    number of offenses, and to have the APCs send delinquency reports to the
    security manager.




                                       15
Defense Intelligence Agency Office of Inspector General
     These reports are not available on the Internet.

     30. Report No. 99-4955-01-050, “Employee Misuse of the Government
     Travel Card.” A Defense Intelligence Agency employee misused the travel
     card and arranged to repay $22,000.

     31. Report No. 00-5111-01-060, “Misuse of Government Travel Card.” A
     Service member had obtained the clearances to work at the Defense Intelligence
     Agency. However, after misusing the travel card, the Service member’s
     clearance was revoked. The Defense Intelligence Agency removed the Service
     member from their workforce and returned the member to the Service.




                                         16
Appendix C. Matrix of Systemic Issues
 Report Number Management Card Use       Account        Training
                Oversight              Reconciliation
       1          X          X                             X
       2          X          X               X
       3          X          X               X             X
       4          X          X
       5          X          X                             X
       6          X          X               X             X
       7          X          X               X             X
       8          X                                        X
       9          X                          X
      10          X                          X             X
      11          X          X                             X
      12          X          X               X             X
      13          X          X               X
      14          X          X               X
      15                                     X
      16                     X               X             X
      17          X          X               X
      18          X          X               X             X
      19          X          X
      20          X                                        X
      21          X
      22          X          X                             X
      23          X          X               X
      24          X          X
      25          X                          X             X
      26          X          X                             X
      27          X          X               X             X
      28          X          X
      29          X
      30                     X
      31                     X
     Total        27         23             16            16




                                  17
Appendix D. Summary of DoD Component
            Responses to Under Secretary of
            Defense (Comptroller) September 21,
            2001, Memorandum

Army
       1. The Secretary of the Army, Vice Chief of Staff of the Army, and Deputy
       Assistant Secretary of the Army (Financial Operations) have issued numerous
       memorandums from August 2000 through August 2001, to provide guidance on
       reducing travel card misuse, abuse, and delinquencies.

       2. The Army personnel community Employee Relations Bulletin provides
       guidance for administering discipline or corrective actions for travel card misuse.

       3. Monthly, the Vice Chief of Staff assesses travel card performance.

       4. The Secretary of the Army’s Quarterly Army Performance Review provides
       Army senior leadership with an update on the program every 3 months.

       5. APCs at the major commands conduct bi-weekly teleconferences to address
       current performance, underlying factors, problems, and corrective actions.

Navy
       1. The Office of the Assistant Secretary of the Navy (Financial Management and
       Comptroller) prepared memorandums in February and March 2001, to provide
       guidance to major Navy and Marine Corps commands on reducing delinquencies.

       2. Some Navy Commands require APCs to periodically review sample travel card
       transactions to identify potential misuse.

       3. The Navy maintains more restrictive approval levels than the DoD Financial
       Management Regulation on the amount of cash withdrawals APCs may approve.

       4. In January 2001, the Navy Comptroller sent nearly 14,000 notices to Navy and
       Marine Corps cardholders who were more than 60 days delinquent. The
       Comptroller also wrote to all major Navy and Marine Corps commands requesting
       that appropriate management attention be given to delinquent accounts.

       5. The Naval Audit Service is currently conducting an audit of the DoD travel
       card program. The audit objective is to determine whether the travel card program
       internal controls are effective in eliminating delinquent account writeoffs.

       6. APC symposiums were held in Norfolk and San Diego in April and June 2001,
       to enhance APC knowledge of travel card regulations and provide information on
       tools available from Nations Bank to effectively manage the travel card.


                                            18
    7. In August 2001, the Navy moved the travel card program manager function to
    the Department of the Navy eBusiness Operations Office.

    8. The Navy is developing a supplemental travel card instruction.

Marine Corps
    1. The Commandant of the Marine Corps prepared numerous messages, from
    September 1998 through September 2001, to provide guidance on reducing travel
    card misuse, abuse, and delinquency.

    2. The Marine Corps Administrative Analysis Team added the DoD travel card
    program as an inspection item.

    3. The Marine Corps Inspector General will incorporate DoD travel card program
    reviews in the normal IG inspection schedule.

Defense Finance And Accounting Service
    1. DFAS consistently maintains a less than 2 percent delinquency rate.

    2. The “DFAS DoD Travel Card Program Guide,” November 1, 2001, provides
    guidance for the Component program manager, APCs, managers, and cardholders
    on proper travel card use and the prevention of misuse, abuse, and delinquencies.

    3. APCs notify supervisors of any delinquencies monthly. Supervisors are
    required to counsel the 60-day delinquent cardholder and present the delinquent
    memorandum to the cardholder. Cardholders that are 90-days delinquent are
    reported to the appropriate Director.

    4. The DFAS Component program manager performs a monthly agency-level
    analysis of account activity and delinquency status. Also, the DFAS Component
    program manager generates management reports for DFAS executives on a
    recurring basis for the personnel they supervise.
    5. Employees who violate the cardholder agreement are subject to disciplinary
    action.

    6. The DoD travel card program is included in the management control program.
    DFAS Internal Review may annually review the DoD travel card program.




                                        19
Other Defense Organizations
    Other Defense organizations stated that they had also issued guidance to reduce
    travel card misuse, abuse, and delinquency. These organizations include the
    American Forces Information Service; the Defense Advanced Research Projects
    Agency; the Defense Commissary Agency; the Defense Intelligence Agency; the
    Defense Security Service; and the Inspector General, DoD.




                                        20
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Defense Procurement

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Defense Finance and Accounting Service

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                           21
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Finance
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         22
Summary Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Garold E. Stephenson
Richard B. Jolliffe
Joseph P. Doyle
Eric Lewis
Michael Miller
Stacie Rimmer
Ann Thompson
